WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-926
Duane Ronald Belanus
V.

Montana

(Petiti oner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

(ZI Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if

';T;2r7j;=2-,

your name has changed since yo
Signature

f

Date: January 15, 2021

(Type or print) Name. Mardell Ployhar
[0 Mr. l Ms. gl Mrs. [] Miss

Firm Montana Attorney General
Address 215 N. Sanders p.o. Box 201401

city & State. Helena, MT

zip 59620-1401

Phone 406-444-2026
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER

IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Duane Ronald Belanus, pro se

